APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of Illinois
Denying Petition for Appeal
(September 30, 2020).......................................... 1a
Order of the Appellate Court of Illinois Granting
Appellee’s Motion to Dismiss Appeal
(February 20, 2020) ............................................ 3a
Order of the Circuit Court of Cook County
Probate Division (July 3, 2019).......................... 5a
Order of the Circuit Court of Cook County
(July 3, 2019) ...................................................... 7a
Order of the Circuit Court of Cook County
Probate Division (January 15, 2019) ................. 9a
REHEARING ORDER
Order of the Appellate Court of Illinois
Denying Petition for Rehearing
(April 6, 2020) ................................................... 13a
OTHER DOCUMENTS
Motion to Dismiss Appeal
(December 30, 2019) ......................................... 15a
Petition to Appeal as a Matter of Right Pursuant
to Supreme Court Rule 317, or Alternatively,
Petition for Leave to Appeal Pursuant to
Supreme Court Rule 315 (May 12, 2020)......... 31a

App.1a
ORDER OF THE SUPREME COURT OF ILLINOIS
DENYING PETITION FOR APPEAL
(SEPTEMBER 30, 2020)
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 EAST CAPITOL AVENUE
SPRINGFIELD, IL 62701-1721
(217) 782-2035
________________________
Michael Anthony Steigmann
Law Office of Michael Steigmann
190 S. LaSalle St., Suite 2100
Chicago IL 60603
First District Office
160 North LaSalle Street, 20th Floor
Chicago IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185
In re: In re Estate of Basavapunnamma K. Rao, etc.
(Padma Rao, petitioner, v.
Midland Trust Company, respondent).
Leave to appeal, Appellate Court, First District.
125994
The Supreme Court today DENIED the Petition
for Appeal as a Matter of Right or, in the alternative,
Petition for Leave to Appeal in the above entitled
cause.
The mandate of this Court will issue to the
Appellate Court on 11/04/2020.

App.2a
Very truly yours,
/s/ Carolyn Taft Grosboll
Clerk of the Supreme Court

App.3a
ORDER OF THE APPELLATE COURT OF
ILLINOIS GRANTING APPELLEE’S MOTION
TO DISMISS APPEAL
(FEBRUARY 20, 2020)
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
________________________
IN RE THE ESTATE OF
BASAVAPUNNAMMA K. RAO,

Deceased.
PADMA RAO,

Petitioner-Appellant,
v.
MIDLAND TRUST COMPANY,

Respondent-Appellee.

________________________
No. 1-19-1427

Appeal from the Circuit Court of
Cook County, Illinois, County
Department, Probate Division
2013 P 6243
Honorable James P. MURPHY, Judge Presiding.
THIS CAUSE coming to be heard on Appellee,
Midland Trust Company’s Motion to Dismiss Appeal,

App.4a
notice having been given and the Court being fully
advised in the premises:
IT IS HEREBY ORDERED that said motion is
GRANTED.
or
IT IS HEREBY ORDERED that said motion is
DENIED.
/s/ Robert E. Gordon
/s/ Jesse G. Reyes
/s/ Eileen O’Neill Burke
ORDER ENTERED FEB 20 2020
APPELLATE COURT FIRST DISTRICT
Mark R. Singler
(mark.singler@fmslawgroup.com)
Kathryn T. McCarty
(kathryn.mccarty@fmslawgroup.com)
Attorneys for Midland Trust Company,
Successor Supervised Administrator
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
312-332-6381
Firm ID: 56304

App.5a
ORDER OF THE CIRCUIT COURT
OF COOK COUNTY PROBATE DIVISION
(JULY 3, 2019)
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS, COUNTY DEPARTMENT,
PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
Case No. 2013 P 6243
Before: Honorable James P. MURPHY,
Judge Presiding.
This matter coming to be heard before this Court
upon the presentation of the PETITION TO SETTLE
CAUSE OF ACTION-WRONGFUL DEATH, due notice being
provided to all interested Parties, the Court having
jurisdiction and being fully advised of all matters
herein;
IT IS HEREBY ORDERED:
1. The Settlement Order entered by Judge Thomas
V. Lyons, II on August 23, 2018 in the Law Division
Proceedings (Cook County Case Number 2014 L
12745), settling the Cause of Action for $2,100,000.00,
is hereby approved;
2. The Distribution Order entered by Judge
Thomas V. Lyons, II on September 10, 2018 in the Law

App.6a
Division Proceedings (Cook County Case Number 2014
L 12745), is hereby approved; and
3. The payout of the Settlement proceeds pursuant
to the terms of the Distribution Order entered by
Judge Thomas V. Lyons, II on September 10, 2018
in the Law Division Proceedings (Cook County Case
Number 2014 L 12745), is hereby authorized and
approved.
4. Midland Trust Company as the Successor
Supervised Administrator of the Estate is hereby
authorized to execute any and all documents reasonable
and necessary to effectuate the Settlement Order
and Distribution Orders, including but not limited to
any Releases.
Entered:
/s/ James P. Murphy
Judge’s No. 1933
Entered: July 3, 2019
Dorothy Brown, Clerk of the Circuit Court
FMS Law Group LLC
Attorneys for MTC, Succ. Supervised Adm
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
312-332-6381
Firm ID: 56304

App.7a
ORDER OF THE CIRCUIT COURT
OF COOK COUNTY
(JULY 3, 2019)
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased
________________________
No. 2013 P 6243
Before: Honorable James P. MURPHY,
Judge Presiding.
This matter coming before the Court related to
the PETITION TO SETTLE CAUSE OF ACTION –
WRONGFUL DEATH, the Court being fully advised of
all matters and having separately approving the
Petition to Settle Cause of Action-Wrongful Death,
approving the Settlement Order dated August 23,
2018 and Distribution Order dated September 10,
2018 in Cook County, Case # 2014 L 12745, upon the
oral motion of Padma Rao, over the objection of
Midland Trust Company as the Court-appointed
Successor Supervised Administrator of the Estate
related to the inclusion of Rule 304(a) language:
It is hereby Ordered:
1. There is no just reason for delaying either
enforcement or appeal or both of the separate order

App.8a
approving the Settlement Order and Distribution
Order;
2. Midland Trust Company is directed to establish
an Estate subaccount to receive any Settlement
proceeds resulting from the Settlement in Case #
2014 L 12745 per the Distribution Order.
Entered:
/s/ James P. Murphy
Judge’s No. 1933
Entered July 3, 2019
Dorothy Brown, Clerk of the Circuit Court
Attorney No.: 56304
Name: FMS Law Group LLC
Atty. for: MTC, Succ. Supervised Adm
Address: 200 W. Monroe St., #750
City/State/Zip: Chicago, IL 60606
Telephone: 312-332-6381

App.9a
ORDER OF THE CIRCUIT COURT
OF COOK COUNTY PROBATE DIVISION
(JANUARY 15, 2019)
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS, COUNTY DEPARTMENTPROBATE DIVISION
________________________
IN RE THE ESTATE OF
BASAVAPUNNAMMA K. RAO,

Deceased
________________________
Case No. 2013 P 6243
Before: Honorable Kent DELGADO, Judge Presiding.
This matter coming to be heard before this Court
upon presentation of the MEMORANDUM OUTLINING
PROPOSED ESTATE ADMINISTRATION of Midland States
Bank, not individually, but solely as Successor
Supervised Administrator with Will Annexed of the
Estate of Basavapunnamma K. Rao, Deceased, the
Court having jurisdiction and being fully advised;
IT IS HEREBY ORDERED; over the objection of
Padma Rao, individually/heir/legatee:
1. The Memorandum Outlining Estate Administration (“Memorandum”) filed by Midland Trust
Company (“Midland”), not individually, but solely as
Successor Supervised Administrator with Will Annexed
of the Estate of Basavapunnamma K. Rao (“Basa”),
Deceased (“Estate”) is hereby accepted;

App.10a
2. Midland, as Successor Supervised Administrator is hereby authorized to proceed with the administration of the Estate as outlined in the Memorandum;
and Midland has no Conflict of Interest;
3. Midland, as Successor Supervised Administrator, is hereby specifically authorized to collect and
secure custody of any and all Estate assets, including,
but not limited to: Chase Checking Account Number:
*****6814 and Chase Savings Account Number
******2280;
4. Midland, as Successor Supervised Administrator, is hereby authorized to: coordinate the preparation
and filing of the 2017 IRS Form 7004 (Application for
Automatic Extension of Time to File Certain Business Income Tax, Information, and Other Returns;
and the 2017 Illinois Form IL-505-B (Automatic
Extension Payment for 2017); and to pay any filing
fees from the Estate associated thereto;
5. Midland, as Successor Supervised Administrator is hereby authorized to coordinate the preparation
and filing of the: 2017 IRS Form 1041; and 2017
Illinois Form IL 1041; and to pay any filing fees and
tax/interest due the IRS or State of Illinois from the
Estate associated thereto;
6. No other distributions of Estate assets shall
be made without prior Court approval;
7. Midland, as Successor Supervised Administrator is hereby authorized to expend Estate assets in an
amount not to exceed $1,000.00 for the preparation
and filing of the 2017 IRS and Illinois extensions and
income tax returns, upon presentation of voucher;

App.11a
8. Padma Rao is hereby directed to provide
Midland: copies of Basa’s final individual IRS and
Illinois income tax returns; any and all fiduciary Estate
income tax returns; and any Estate Tax returns
within seven (7) days from entry of this Order, or no
later than January 22, 2019;
9. Padma Rao is hereby directed to provide
Midland an Inventory of Estate assets as of Basa’s
Date of Death, within seven (7) days from entry of
this Order, or no later than January 22, 2019;
10. Padma Rao is hereby directed to provide
Midland with any and all Estate Accountings from
her date of appointment to the date of her removal, if
any, within seven (7) days, or no later than January
22, 2019. In the event no Estate Accountings have
been prepared, then Padma Rao shall be directed to
prepare and provide an Estate Accounting from the
date of her appointment to the date of her removal
within thirty (30) days from entry of this Order, or no
later than February 14, 2019;
11. Midland, as the Successor Supervised Administrator, is hereby authorized to proceed with the
investigation of the Law Division matter to independently investigate whether the proposed settlement is
fair, reasonable, and in the best interests of the Estate;
12. Padma Rao’s Petition to Clarify this Court’s
December 19, 2018 Ruling and Supplement related
thereto is denied in part and approved in part as
follows: Paragraph A and B of the wherefore provisions
are denied pursuant to Circuit Court rules 12.15 and
6.5; and Paragraph C is granted as to Padma Rao
having standing as an heir and legatee as to any
Petition filed before the Probate Court.

App.12a

Entered:
/s/ Kent A. Delgado
Judge’s No. 2185
Dated: January 15, 2019
FMS Law Group LLC
Attorneys for: MSB, Succ Spvsd Admin
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
(312) 332-6381
Firm ID: 56304

App.13a
ORDER OF THE APPELLATE COURT OF ILLINOIS
DENYING PETITION FOR REHEARING
(APRIL 6, 2020)
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
________________________
IN RE ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
PADMA RAO,

Petitioner-Appellant,
v.
MIDLAND TRUST COMPANY,

Respondent-Appellee.

________________________
No. 1-19-1427

Appeal from the Circuit Court of Cook County
No. 2013 P 6243
Honorable James P. MURPHY, Judge Presiding.
This cause coming forth on Respondent-Appellee’s
Petition for Rehearing, the Court being fully advised
in the premises;
IT IS HEREBY ORDERED that the Petition for
Rehearing is DENIED.

App.14a
/s/ Robert E. Gordon
/s/ Eileen O’Neill Burke
/s/ Jesse G. Reyes

App.15a
MOTION TO DISMISS APPEAL
(DECEMBER 30, 2019)
IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
PADMA RAO,

Appellant,
v.
MIDLAND TRUST COMPANY,

Appellee.

________________________
No. 1-19-1427

Appeal from the Circuit Court of Cook County,
County Department, Probate Division
Trial Judge: James P. Murphy
Circuit Court No. 2013 P 6243
Dates of Orders:
May 22, 2019 (original order allowing Midland Trust
Company to withdraw Motion to Vacate)
July 2, 2019 (order denying motion for
reconsideration of May 22, 2019 order)

App.16a
July 3, 2019 (order approving settlement
order/distribution order)
NOW COMES Appellee, Midland Trust Company,
not individually, but solely as the Court-appointed
Successor Supervised Administrator with Will Annexed
of the Estate of Basavapunnamma K. Rao, Deceased,
by and through its attorneys, FMS Law Group LLC,
and moves this Court to dismiss the appeal of Appellant, Padma Rao, as beneficiary in the above manner,
stating in support thereof as follows:
BACKGROUND FACTS
Probate Proceedings
1. This Appeal arises from a decedent’s estate
probate proceeding, the Estate of Basavapunnamma
K. Rao, Deceased (the “Estate”), in the Circuit Court
of Cook County, Probate Division, Case No. 2013 P
624 (“Probate Proceedings”).
2. On October 17, 2013, Basavapunnamma K. Rao
(“BK”) died unmarried (C.41) and was survived by
two (2) adult heirs, namely, her daughter and the
Appellant in this matter, Padma Rao (“Padma”), and
her daughter, Anita Rao (“Anita”). (C.65)
3. On November 25, 2013, in the Probate Proceedings, BK’s Will dated February 29, 1980 was
admitted to probate and Padma was appointed as
Independent Administrator with Will Annexed of the
Estate. (C.62-63)

App.17a
Lawsuit in Law Division Proceedings
4. On or about December 8, 2014, Padma, as
Independent Administrator with Will Annexed of the
Estate, filed a lawsuit alleging medical malpractice
(“Lawsuit”) against NorthShore University HealthSystem (“Northshore”) and four employee physicians
of Northshore in the Circuit Court of Cook County,
Law Division, Case No. 2014 L 12745 (“Law Division
Proceedings”).1 The Probate Court was informed of
the existence of the Lawsuit in the Law Division
Proceedings on or about August 12, 2015. (C.271)
5. On August 23, 2018, after the culmination of
mediation with retired judge Michael Panter (“Judge
Panter”) and ongoing pre-trial conferences with Judge
Thomas V. Lyons, II (“Judge Lyons”), who was the
presiding judge overseeing the Lawsuit in the Law
Division Proceedings, Judge Lyons entered an Order
(“Settlement Order”), which stated in part, that: (i)
Padma, acting as Independent Administrator of the
Estate, agreed to accept the Defendants’ offer of a
$2.1 Million settlement (“Settlement”); and (ii) the
Law Division Court, “knowing and understanding
the allegations of this case and the likely evidence in
this case, finds said settlement offer to be fair and
reasonable.” (C.356)

1 Appellee, Midland Trust Company, not individually, but solely
as the Court-appointed Successor Supervised Administrator
with Will Annexed of the Estate of Basavapunnamma K. Rao,
Deceased, respectfully requests that this Court take judicial
notice of the pleadings, orders, papers and proceedings in the
Law Division Proceedings (Circuit Court of Cook County, Law
Division, Case No. 2014 L 12745). Illinois Rule of Evidence 201;
735 ILCS 5/8-1002.

App.18a
6. On September 5, 2018, the remaining Parties
to the Lawsuit appeared before Judge Lyons on the
original scheduled trial date. During the September 5,
2018 hearing, Padma submitted an ex parte communication to Judge Lyons, which stated that “I did not
and do not assent to settlement. I wish to go to trial.”
(C.359; Page 5, Lines 9-24)
7. It was also during the September 5, 2018 hearing that Padma first alleged that she was not able to
settle the Lawsuit due to BK’s Hindu beliefs. (C.361:
Page 13, Lines 6-24; C.363: Page 21; Lines 13-21)
Judge Lyons quickly admonished Padma for alleging
she previously raised religious beliefs as a reason for
objecting to the Settlement and confirmed that at
no point during the Law Division Proceedings and
specifically during the pre-trial conferences, either in
his chambers or in open court, was religion, and
particularly Hinduism, ever mentioned by Padma.
(C.362-364) After a lengthy discussion on the record,
Judge Lyons ordered that the terms of the August
23, 2018 Settlement of $2.1 Million would stand and
instructed the Parties to return on September 10,
2018 for presentation of the proposed Petition for
Distribution pursuant to the August 23, 2018
Settlement Order. (C.368)
8. On September 10, 2018, Judge Lyons entered a
detailed, three (3) page Distribution Order (“Distribution Order”) which, in part: (i) approved the total
Settlement of $2.1 Million and found that the Settlement was fair and reasonable; (ii) approved attorney
fees and costs of Karlin, Fleisher & Falkenberg in the
amount of $771,447.81; (iii) approved the Survival Act
Claim and distribution to the Estate in the amount of
$1,012,223.44; (iv) approved the Wrongful Death Claim

App.19a
and distribution of the Wrongful Death proceeds in
the negotiated amount of $221,430.13 to Padma; (v)
approved the Wrongful Death Claim and distribution
of the Wrongful Death proceeds in the amount of
$94,898.62 to Anita; (vi) dismissed the Lawsuit, with
prejudice, as all matters between the Estate, Padma,
Anita and the Defendants had been fully compromised,
settled and adjourned; and (vii) approved of Padma
withdrawing as Independent Administrator of the
Estate to allow a Bank to substitute in on behalf of
the Estate to execute any Release documents to finalize
the Settlement and Lawsuit. (C.378-380)
9. On October 10, 2018, in the Law Division
Proceedings, Padma, as Independent Administrator
with Will Annexed, filed a Motion to Vacate on
behalf of the Estate (“Motion to Vacate”). Based on
Padma’s allegation of BK’s alleged religious objections
to settlement, Padma’s Motion to Vacate sought to
vacate the following Orders related to the $2.1 Million
Settlement: August 22, 2018; August 23, 2018
Settlement Order; September 5, 2018; and September
10, 2018 Distribution Order. (C.612-616)
10. On October 29, 2018, in the Law Division Proceedings, Padma, as Independent Administrator with
Will Annexed, filed her Plaintiff’s Memorandum in
Support of the Motion to Vacate. (C.307-337)
Removal of Padma as Administrator / Appointment
of MTC as Successor Administrator
11. On November 29, 2018, on the petition of
BK’s other daughter, Anita, in the Probate Proceedings
(C.338-346), the Estate was converted to Supervised
Administration and modified Padma’s role from

App.20a
Independent to Supervised Administrator with Will
Annexed. (C.473)
12. On December 19, 2018, the Probate Court
found Padma to be incapable and unsuitable to act as
the Administrator of the Estate and removed Padma
as Supervised Administrator with Will Annexed for
engaging in waste and mismanagement of the Estate.
(C.562)
13. As a result, also on December 19, 2018, the
Probate Court appointed Midland Trust Company
(“MTC”) as Successor Supervised Administrator with
Will Annexed. (C.561)
Approval of Settlement of the
Lawsuit in the Probate Proceedings
14. On January 15, 2019, the Probate Court
ordered MTC, as Successor Supervised Administrator
with Will Annexed, to investigate whether the $2.1
Million Settlement of the Lawsuit in the Law Division
Proceedings was fair, reasonable and in the best
interests of the Estate. (C.661, ¶11)
15. On April 2, 2019, MTC, under seal for confidentiality purposes, provided all interested parties
and a courtesy copy to the Probate Court of its
detailed Report to the Court and Request for Direction
(“Report to Court”), which Report to Court: (a) concluded
that the $2.1 Million Settlement is fair, reasonable,
and in the best interests of the Estate and that the
Settlement should be approved by the Probate Court;
and (b) sought direction and authority from the
Probate Court to withdraw the Motion to Vacate,
with prejudice, filed in the Law Division Proceedings

App.21a
by Padma, as the former Independent Administrator
with Will Annexed.
16. On April 11, 2019, the Probate Court entered
an Order granting Padma 28 days (i. e., until May 9,
2019) to respond or otherwise plead to the Report to
the Court. (C.667)
17. Because Padma had failed to file a responsive
pleading to the Report to the Court by the May 9,
2019 deadline, on May 16, 2019, MTC filed its

Petition for Ruling on Report to the Court and
Request for Direction (“Petition for Ruling”), to be

presented to the Probate Court for approval on May
22, 2019 (C.685-686), seeking an Order: (a) denying
any request by Padma for extension of time to file a
response to the Report to Court; (b) striking any
responsive pleading filed after the May 9, 2019 deadline; (c) approving and accepting MTC’s Report; and
(d) directing MTC as to the outstanding issues outlined in the Report. (C.677-682)

18. On May 22, 2019, over the objection of MTC,
the Probate Court entered an Order giving Padma
leave to file her Response and Objection to MTC’s
Report to Court, instanter. Notwithstanding Padma’s
filed Response and Objection to MTC’s Report to
Court, after a full oral argument, in the best interests of the Estate, the Probate Court entered an
Order authorizing MTC, as Successor Supervised
Administrator with Will Annexed, to withdraw the
Motion to Vacate filed by Padma, as former Independent Administrator with Will Annexed, that was
still pending in the Law Division Proceedings. (C.767)
19. On May 30, 2019, Padma filed her Motion
to Reconsider Ruling on Midland Trust Request for

App.22a

Direction (“Motion to Reconsider”), requesting that

the Probate Court direct MTC to proceed on the
Motion to Vacate in the Law Division Proceedings.
(C.768-770)
20. On July 2, 2019, in the Probate Proceedings,
again after a full oral argument, the Probate Court
entered an Order denying the Motion to Reconsider
“for the reasons on the record.” (C.1218) The July 2,
2019 Order entered by the Probate Court provided
MTC the authority as the Successor Supervised
Administrator, to proceed to withdraw the Motion to
Vacate in the Law Division Proceedings.
21. On July 3, 2019, in the Law Division Proceedings, MTC was granted leave to withdraw the
pending Motion to Vacate, with prejudice, for the
reasons stated on the record, and the Settlement
Order and the Distribution Order were ratified for
the reasons also stated on the record. (C.1293)
22. Also on July 3, 2019, in the Probate Proceedings, the Probate Court entered an Order approving
the Settlement Order and the Distribution Order,
approving and authorizing the payout of the Settlement
proceeds pursuant to the Distribution Order, and
authorizing MTC to execute any and all documents
reasonable and necessary to effectuate the Settlement
Order and Distribution Order. (C.1220)

App.23a
Notice of Appeal
23. This Appeal followed. On July 11, 2019,
Padma, as beneficiary in the above matter, filed her
Amended Notice of Appeal (“Appeal”) (C.1228-1229),
which seeks the following relief:
(a) Reversal and vacating paragraphs 1 and 2
of the July 3, 2019 Order approving the
Settlement Order entered in the Law Division
Proceedings and approving the Distribution
Order entered in the Law Division Proceedings;
(b) Reversal and vacating prior orders necessary
to bring about this July 3, 2019 Order
approving the settlement and distribution,
including paragraph 2 of the July 2, 2019
Order regarding the denial of Padma’s
Motion to Reconsider the May 22, 2019
Order allowing MTC to withdraw the Motion
to Vacate Settlement;
(c)

Reversal of the July 2, 2019 Order regarding
denial of Padma’s Motion to Reconsider as
to the May 22, 2019 Order allowing MTC to
withdraw the Motion to Vacate, with the
Appellate Court directing the trial court to
direct MTC to proceed in the Motion to
Vacate as requested by Padma; and

(d) Reversal of the May 22, 2019 Order allowing
MTC to withdraw the Motion to Vacate, with
the Appellate Court directing the trial court
to direct MTC to proceed in the Motion to
Vacate as requested by Padma.

App.24a
ARGUMENT
Padma’s Appeal Must Be Dismissed
for Lack of Standing
24. “The doctrine of standing requires that a
party, either in an individual or representative capacity,
have a real interest in the action brought and in its
outcome. The purpose of the doctrine is to ensure
that courts are deciding actual, specific controversies
and not abstract questions or moot issues.” In re
Estate of Wellman, 673 N.E. 2d 272, 276, 174 Ill.2d
335, 220 Ill.Dec. 360 (Ill., 1996). Standing is not
simply a procedural technicality but rather an aspect
or component of justiciability. Id.
25. In the context of wrongful death and survival
actions, Illinois law has long made clear that, under
both wrongful death and survival actions, “the cause
of action must be brought by and in the name of the
representative or administrator of the decedent’s
estate. Will v. Northwestern University, 378 Ill.App.3d
280, 289 (1st Dist. 2007). “It is to this administrator
that the right of action accrues and it is this administrator who possesses the sole right of action or control
over the suit; the beneficiaries or heirs have neither
a right of action nor any control.” Id. and cases cited
therein.
26. In the Will case, Linda Will (“Linda”) and
George Wheeler, Tr., as co-administrators of the estate
of their deceased son, Rashidi Wheeler (“Rashidi”),
filed a wrongful death and survival action arising
from the death of Rashidi, a football player at Northwestern University (“Northwestern”), during practice.
The trial court directed the acceptance of the $16
million settlement over the objections of co-adminis-

App.25a
trator Linda, who objected because the settlement
did not include non-monetary items which she, alone,
insisted upon. Linda, both individually and as co-administrator, and Rashidi’s brothers, members of Rashidi’s
estate and in their individual capacities, appealed,
contending that the trial court did not have authority
to direct acceptance of the settlement over co-administrator Linda’s objection. Id. at 282-291.
27. The Will Court, noting that wrongful death
and survival actions “must be brought by and in the
name of the representative or administrator of the
decedent’s estate” and do “not create an individual
right in a beneficiary to bring suit”, dismissed the
appeal with respect to Linda, individually, and Rashidi’s
two brothers for lack of standing, finding that none
of them were parties of record to the underlying
causes of action in their individual capacities, as the
underlying causes of action (wrongful death and
survival) must be brought by and in the name of the
representative or administrator of the decedent’s
estate. Id. at 289-290.
28. In fact, in the Law Division Proceedings, in
her Motion to Strike (and Response to) Anita Rao’s
Motion for Sanctions and Rule to Show Cause, Padma
herself relied on the Will case to argue that the
Court should strike Anita’s Motion for Sanctions on
the basis that Anita, as a non-party to the Lawsuit,
lacked standing:
“Anita Rao was not a party to the instant
medical malpractice lawsuit. She has no
divisible or independent cause of action.
Only Dr. Rao, as the administrator of the
Estate, has the power to control the action.
Anita Rao lacks standing in this lawsuit. As

App.26a
such, any court filing by her in this case
was without any authority and should be
stricken. The Estate requests that this Court
strike the appearance and Sanctions Motion
filed by Anita Rao.” (C.1092-1093)
A. Padma, Individually, Lacks Standing to Bring
This Appeal, as She Was Not a Party to the
Underlying Cause of Action
29. Likewise, here, Padma, individually, was not
a party to the instant medical malpractice Lawsuit.
Padma, individually, has no divisible or independent
cause of action. The Lawsuit was filed against
Defendants for wrongful death and survival claims by
Padma, not individually, but solely as the then/former
Independent Administrator with Will Annexed of the
BK’s Estate. However, Padma filed her Appeal in this
cause, individually, as “beneficiary” of BK’s Estate.
30. As in Will, Padma, as an individual and/or
as a beneficiary of BK’s Estate, had no justiciable
right to bring suit against the Defendants and, thus,
was not a party to the underlying causes of action
because she did not have divisible or independent
causes action. And, ultimately, if Padma in her
individual capacity and/or as beneficiary of BK’s
Estate, was not a party to the underlying causes of
action, then Padma, in her individual capacity and/or
as beneficiary of BK’s Estate, cannot be a party to the
instant Appeal. Standing is a jurisdictional requirement. As Padma, individually, lacks standing to file
this Appeal, her Appeal must be dismissed.

App.27a
B. Padma Lacks Standing to Bring This Appeal,
as She Is Not the Representative of BK’s
Estate and Filed Her Appeal in Her Capacity
as Beneficiary of BK’s Estate
31. Moreover, under Will, Padma has no standing
to be a party to the instant Appeal as a representative
of BK’s Estate, as: (a) Padma is no longer the representative of BK’s Estate after the Probate Court
removed her for waste and mismanagement as Administrator of BK’s Estate on December 19, 2018 (prior to
entry of the May 22, 2019, July 2, 2019, and July 3,
2019 Orders that are the subject of this Appeal); and
(b) in any event, Padma filed her Appeal solely in her
capacity as “beneficiary” of BK’s Estate.
32. Thus, to the extent that Padma is attempting
to appeal the May 22, 2019, July 2, 2019, and July 3,
2019 Orders in her capacity as former Administrator
of BK’s Estate, she lacks standing to do so. As stated
above, standing is a jurisdictional requirement. As
Padma lacks standing to file this Appeal, her Appeal
must be dismissed.
WHEREFORE, Appellee, Midland Trust Company,
not individually, but solely as the Court-appointed
Successor Supervised Administrator with Will Annexed
of the Estate of Basavapunnamma K. Rao, Deceased,
moves for entry of an order dismissing this Appeal
with prejudice.

App.28a
Respectfully submitted,
/s/
One of the attorneys for Appellee,
Midland Trust Company, not individually,
but solely as the Court-appointed Successor
Supervised Administrator with Will Annexed
of the Estate of Basavapunnamma K. Rao,
Deceased
December 30, 2019
Mark R. Singler
(mark.singler@fmslawgroup.com)
Kathryn T. McCarty
(Kathryn.mccarty@fmslawgroup.com)
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
312-332-6381
Attorneys for:

Appellee, Midland Trust Company, not individually,
but solely as the Court-appointed Successor Supervised Administrator with Will Annexed of the Estate
of Basavapunnamma K Rao, Deceased

App.29a

VERIFICATION
Under penalties as provided by law pursuant to
§ 1-109 of the Code of Civil Procedure, the undersigned
certifies that the statements set forth in this instrument are true and correct, except as to matters therein
stated to be on information and belief, and as to such
matters, the undersigned certifies as aforesaid that
he verily believes the same to be true.

Attorneys for:
Appellee, Midland Trust Company, not
individually, but solely as the Court-appointed
Successor Supervised Administrator with Will
Annexed of the Estate of Basavapunnamma
K Rao, Deceased
By: ___________________
Its: Trust Officer
Subscribed and sworn to before me this 30th day of
December, 2019.
/s/ Mark R. Singer
Notary Public
Mark R. Singler
(mark.singler@fmslawgroup.com)
Kathryn T. McCarty
(Kathryn.mccarty@fmslawgroup.com)
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
312-332-6381

App.30a

Attorneys for:
Appellee, Midland Trust Company, not individually,
but solely as the Court-appointed Successor Supervised Administrator with Will Annexed of the Estate
of Basavapunnamma K Rao, Deceased

App.31a
PETITION TO APPEAL AS A MATTER OF RIGHT
PURSUANT TO SUPREME COURT RULE 317,
OR ALTERNATIVELY,
PETITION FOR LEAVE TO APPEAL PURSUANT
TO SUPREME COURT RULE 315
(MAY 12, 2020)
IN THE SUPREME COURT OF ILLINOIS
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
PADMA RAO,

Petitioner,
MIDLAND TRUST COMPANY,

Respondent.

________________________

Appeal from the First District
Case No. 19-1427
Date of Order April 6, 2020
Appeal from Cook County Cir. Ct.
No. 2013 P 6243
Hon. James P. Murphy
Michael Steigmann
Law Office of Michael Steigmann
190 S. LaSalle #2100
Chicago, Illinois 60091
ARDC 6226169 michael@steigmann.com
(312) 833-5945

App.32a
ORAL ARGUMENT REQUESTED
IF PETITION GRANTED
Prayer to Appeal as a Matter of Right under Rule 317,
or Alternatively, for Leave to Appeal Under Rule 315
Now comes petitioner Dr. Padma Rao and respectfully petitions this Court to appeal this matter as of
right pursuant to Supreme Court Rule 317, or alternatively, petitions this Court for leave to appeal this
matter pursuant to Supreme Court Rule 315.
Judgment Below
The Appellate Court overturned the trial court’s
standing finding and granted Appellee Midland Trust
Company’s Motion to Dismiss the Appeal for lack of
standing on February 20, 2020. (A 1). The Appellate
Court denied petitioner Dr. Rao’s Petition for Rehearing
on April 6, 2020. (A 2).
Points Relied Upon for
Review of Judgment of the Appellate Court
In this matter, the First District reversed the
trial court’s standing ruling (A 3-4 ¶ 12) to hold that
Estate beneficiary and heir Dr. Rao — who is the
daughter of the deceased — had no standing to
challenge the trial court’s decision to approve a $2.1
million settlement as requested by the Estate Administrator for Survival Act and wrongful death claims.
The First District’s decision conflicts with numerous
other appellate districts and holdings by this Court
regarding the standing of an heir in a Probate action,
and also denies Dr. Rao her procedural due process
rights to be heard and protect her property interests
in her wrongful death and Estate claims.

App.33a
A. A conflict exists between this decision and the
Second District’s decision of In Re Estate of Cappetta,
which held that claimants of a decedent’s Estate had
standing to argue that the trial court erred in
approving a $1.7 million settlement as requested by
the Estate Administrator. 315 Ill.App.3d 414, 424-5
(2nd Dist. 2000) (vacating settlement). The court
held that the Salvation Army and Shriner’s Hospital
had standing even just as beneficiaries of an Estate
claimant because of their direct and substantial
interest in the Estate distribution, and the court
rejected the attempt to dismiss them for lack of
standing. Id. The Second District then reversed the
trial court’s settlement approval because the Estate
Administrator had not gotten sufficient input or consent from all interested parties. Id. at 429.

Cappetta cited another Second District decision,
In re Estate of Lilly, which likewise allowed an Estate

beneficiary to appeal the trial court’s approval of a
wrongful death settlement proposed by the Estate
Administrator. 41 Ill.App.3d 348, 352-54 (2nd Dist.
1976). Lilly also reversed the trial court’s settlement
approval because the Estate Administrator there was
conflicted and the settlement amount was modest. Id.
at 353. Both Lilly and Cappetta allowed estate beneficiaries the standing to successfully petition to vacate
a settlement, in direct conflict with the First District’s holding here.
The decision here also conflicts with the Second
District’s decision of In Re Estate of Wallen , in
which the court reversed to allow a creditor to dispute
improper Estate Administrator actions in the trial
court. 262 Ill.App.3d 61 (2nd Dist. 1994). The court
stated that “the administrator is the representative

App.34a
of the decedent and all those interested in the estate,
such as creditors, heirs, legatees, and devisees; he is
a fiduciary to those interested in the estate.” Id. at
72.
B. A conflict exists between this decision and the
Third District’s decision of In Re Estate of Lay, which
reversed the dismissal for lack of standing as to a
party who met the definition of an interested person
under the Probate Act in its section 1-2.11 (755 ILCS
5/1-2.11). 2018 Ill Ap (3d) 170378 ¶¶ 14-18. That statute mandates: “‘Interested person’ in relation to any
particular action, power or proceeding under this Act
means one who has or represents a financial interest,
property right or fiduciary status at the time of
reference which may be affected by the action, power
or proceeding involved, including without limitation
an heir, legatee, creditor.” 755 ILCS 5/1-2.11. Lay held
that its party “has standing in this case if she has
something financial to gain if she prevails.” Id. at ¶ 18.
Because heir and legatee Dr. Rao also has standing
in this matter under Lay and section 1-2.11 of the
Probate Act, the First District’s contrary decision
here is in conflict.
The decision here also conflicts with a Third District holding that two children entitled to differing
compensation from a parent’s death must both have
standing to assert their competing interests. Knobloch
v. Peoria & Pekin Union Railway Co., 118 Ill.App.3d
205, 207-8, (3rd Dist. 1983). Because the same situation
occurs in this matter with differing compensation
due to the deceased’s two daughters under the wrongful
death claim from their different circumstances, the
standing decision here directly conflicts with Knobloch.

App.35a
Moreover, a conflict exists with the Third District’s
decision of Estate of Venturelli v. Granville Nat. Bank,
where the Estate creditor was able to assert that the
executor was negligent in estate management. 54 Ill.
App.3d 997 (3rd Dist. 1977). The court stated, “It is
well established that an executor is the representative
of the decedent and all those interested in the estate,
such as creditors, heirs, legatees.” Id. at 1002.
In addition, the decision conflicts with the Third
District case of Trompeter Constr. v. First Fed. Sav.
& Loan, which held that parties to the record have
an absolute right of appeal and may do so if they
consider themselves aggrieved by the judgment, and
whether they were actually so aggrieved has no bearing upon their right to appeal. 62 Ill.App.3d 173, 175
(3rd Dist. 1978). Trompeter ruled that “it is clear that
defendant First Federal is a party of record to the
proceedings below, and that defendant First Federal
is therefore bound by the decree of the circuit court.
Therefore, First Federal has a right to appeal from the
circuit court’s determination.” Id. at 176. As Dr. Rao
was a party of record and participated in the trial
court proceedings, the Trompeter holding allows Dr.
Rao standing to appeal and conflicts with the decision
here.
C. A conflict exists between this decision and the
Fourth District’s decision of In Re Estate of Thomson,
where the court reversed and held that the beneficiaries must be heard in the trial court on their
claims that the Estate Administrator breached his
fiduciary duties to these beneficiaries in his estate
administration. 139 Ill. App.3d 930, 940 (4th Dist.
1986). Moreover, numerous Fourth District cases have
allowed an Estate beneficiary to object to Estate

App.36a
attorney and administrator fees. See In Re Estate of
Weeks, 490 Ill.App.3d 1101, 1110-3 (4th Dist. 2011);
In Re Estate of Thorp, 282 Ill.App.3d 612, 619-20
(4th Dist. 1996); In re Estate of Parlier, 40 Ill.App.3d
840 (4th Dist. 1976).
D. A conflict exists between this decision and two
Illinois Supreme Court decisions. In In re Estate of
Powell, this Court held that the beneficiary of a
wrongful death action has standing to contest the
improper attorney actions of the wrongful death
plaintiff’s attorney. 2014 IL 115997 ¶¶ 16-20. Under
Powell, wrongful death beneficiary Dr. Rao also has
standing to contest the improper attorney settlement
requested for approval by the Estate Administrator,
and thus the First District’s contrary decision here is
in conflict. In In re Estate of Wellman, this Court
held that standing requires that a party have a real
interest in the action brought and in its outcome. 174
Ill.2d 335, 344 (1996). Thus under Wellman, and in
conflict with the First District’s decision, Dr. Rao has
standing to contest the settlement here for which Dr.
Rao has an enormous monetary and personal interest.
E. A conflict exists between this decision and decisions of the United States Supreme Court and this
Court which hold that Dr. Rao is entitled to procedural
due process in this case, so that she is not deprived of
her property as Estate heir and wrongful death beneficiary without first having standing to be heard. The
due process clause of the fourteenth amendment
prohibits state action that deprives any person of life,
liberty, or property without due process of law. U.S.
Const., amend. XIV, § 1. The fundamental requirements
of due process are notice of the proceeding and an
opportunity to present any objections. People v. Car-

App.37a

dona, 2013 IL 11407646 ¶ 15. The due process clause

requires that the opportunity to be heard occur “‘at a
meaningful time and in a meaningful manner.’” Lyon
v. Department of Children & Family Services, 209
Ill.2d 264, 277 (2004), quoting Mathews v. Eldridge,
424 U.S. 319, 333 (1976). The Constitution requires
some kind of a hearing before the State deprives a
person of liberty or property. Zinermon v. Burch, 494
U.S. 113, 127 (1990). Zinermon lists numerous property
rights for which due process requires a hearing before
the State may act to compromise them, including:
utility service cut-off, student suspension, forfeiture
of prisoner’s goodtime credits, and welfare benefit
termination. 494 U.S. at 127-8.
This Court has repeatedly held that a wrongful
death beneficiary such as Dr. Rao has a direct property
interest in the wrongful death action, and thus procedural due process requires Dr. Rao to have standing
and be heard regarding the Probate Court’s oversight
of such action and approval of a settlement compromising Dr. Rao’s property rights in the action. In
Powell, this Court held, “A wrongful death action is
brought for the exclusive benefit of the beneficiaries
who are the true parties in interest.” (2014 IL 115997
at ¶ 22), and the amount recovered in the action
shall be for the “exclusive benefit of the surviving
spouse and next of kin” of the deceased. Id. at ¶ 16,
quoting 740 ILCS 180/2. Powell further stated that
since a wrongful death action is indisputably brought
for the benefit of a child of the deceased such as Dr.
Rao, the wrongful death attorney owes Dr. Rao a
fiduciary duty. Id. at ¶ 19, citing DeLuna v. Burciaga,
857 N.E.2d 229 (Ill. 2006). Accordingly, because Dr.
Rao has a direct property interest in the wrongful death

App.38a
action, she must have standing and the opportunity
to be heard regarding the oversight and compromise
of the action in order to satisfy her procedural due
process rights under Cardona, Lyon, Mathews, and
Zinermon.
Dr. Rao also has a property interest as an heir
and beneficiary of the Estate that entitles her to
procedural due process rights to be heard and protect
this interest. The cases above of Cappetta, Wallen,
Thomson, and Venturelli all hold that Estate beneficiaries and creditors such as Dr. Rao have a property
interest in the Estate. Thus once again, Dr. Rao as
heir and legatee must have standing and the opportunity to be heard to protect her interest in the
Estate in order to satisfy her procedural due process
rights under Cardona, Lyon, Mathews, and Zinermon.
F. This matter is of great general importance, as
Estate beneficiaries deserve to have their rights as to
the Estate heard and protected as they proceed
through the judicial system. The idea that an Estate
beneficiary has no recourse to protect herself from
improper Estate Administration, even when the Estate
Administrator owes the beneficiary a fiduciary duty,
is anathema to our ideals of fairness and due process
under Illinois law. This court should ensure there is
a uniform body of Illinois law that Estate beneficiaries
do have the right to be heard and their rights and
property protected.
G. This Court’s exercise of supervisory authority
is appropriate here where the Appellate Court reversed
the trial court’s standing decision in a one-sentence
dismissal order that fails to conform to the decision
requirements of Supreme Court Rule 23.

App.39a
H. As the trial court here held that Dr. Rao had
standing but denied allowing the Motion to Vacate
Settlement to proceed on the merits, should this
Court exercise its supervisory authority to allow Dr.
Rao to also present her arguments on the merits as
well as standing in the interests of judicial economy,
then Dr. Rao would welcome that opportunity.
Statement of Facts
Appellant Dr. Rao was Estate Administrator in
this matter, and then was replaced as administrator
by Midland Trust Company (Midland) on December
19, 2018. (C 561). On January 14, 2019, Dr. Rao filed
a Petition to Clarify which requested an Order stating:
“Padma Rao has standing to address this
Court regarding its supervision of Midland
Trust, including the Court’s direction and
approval of distributions, as well as, objecting
and presenting evidence as to any petition
brought before this Court to approve any
purported settlement in the Law Division
action.”
(C 644, 647 ¶ C). The Court granted Dr. Rao’s Petition
request in an Order stating: “Paragraph C is granted
as to Padma Rao having standing as an heir and
legatee as to any Petition filed before the Probate
Court.” (A 3-4 ¶ 12) (C 661).
On April 2, 2019, Midland filed under seal a
Report to the Court and Request for Direction. (C
662). In its Report, Midland sought authority from
the Probate Court to approve a $2.1 million settlement
in the Law Court and its Distribution Order, as well
as withdraw a Motion to Vacate filed in the Law

App.40a
Court proceedings that had been previously filed on
behalf of the Estate by prior Estate Administrator
Dr. Rao. (C 662-4).
The Law Court action at issue included both
Survival and Wrongful Death causes of action. (A 5)
(C 626). The deceased was widowed and her only two
heirs were daughters Dr. Rao and Anita Rao. (A 7) (C
628). After deduction for fees and costs, the Law
Court’s Distribution Order from the settlement directs
$221,430 to Dr. Padma Rao for the Wrongful Death
case, and directs a Survival Act settlement amount
of $1,012,223 to the Estate of Rao for distribution in
probate. (A 7) (C 628).
The Probate Court allowed Dr. Rao to file a
response opposing Midland’s Request for Direction
and to withdraw the Motion to Vacate. (C 667). Dr.
Rao’s Response in Opposition incorporated the Motion
to Vacate and affidavit in support. (C 693-694). Dr.
Rao’s Response supporting the Motion to Vacate is
the subject of the merits of this appeal and is restated
here very briefly. By early August 2018, Dr. Rao as
Independent Administrator had told her lawyers
multiple times that it was the wishes of decedent -and thus Dr. Rao as well -- to have a jury trial, as it
was against the beliefs of decedent to settle with
people she thought were wrongdoers. (C 695). But
decedent’s and Dr. Rao’s wishes were ignored in
August 2018, when Dr. Rao as Independent Administrator was cajoled, pressured, and made to participate
in a process she did not want, never consented to,
and tried desperately to exit. (C 695-96). When the
purported Law Court settlement was offered by
defendants, the trial court told Dr. Rao she should
take it and if she did not accept the offer, a third party

App.41a
would be appointed as administrator instead of Dr.
Rao to determine if the settlement was fair. (C 696).
Dr. Rao as Independent Administrator said to the
judge. “I feel I am being railroaded. Do I really have
a choice here?” and also told the judge that settlement
is contrary to decedent’s wishes and beliefs. (C 696).
Unfortunately, Dr. Rao’s own lawyer at the time
acted against her and decedent’s wishes by entering
into a purported settlement which Dr. Rao has refused
to approve or condone ever since. (C 696), The Motion
to Vacate argues that the purported settlement was
invalid as coerced and also not in the best interests
of the Estate because it conflicts with decedent’s
wishes, and thus it must be vacated. (C 696-700).
The Probate Court granted Midland’s request to
withdraw the Motion to Vacate (C 779). The court
then denied Dr. Rao’s Motion to Reconsider after full
briefing and approved the Law Division Settlement
as requested by Midland (C 1218 and 1220), with
Rule 304(a) language allowing for immediate appeal.
(C 1221). Dr. Rao appealed, requesting that the Probate
Court at least allow the Motion to Vacate Settlement
to proceed to a resolution on the merits, as the Motion
to Vacate presents a genuine legal issue on a crucial
matter of adherence to the decedent’s wishes. (C 122223; 1228-29). As Dr. Rao pursues this appeal, Dr.
Rao’s portion of all settlement proceeds have been
deposited with the Clerk of the Circuit Court of Cook
County for return if successful. (A 8).
On December 30, 2019, Midland filed a Motion
to Dismiss the appeal asserting that Dr. Rao lacked
standing in the Probate Court to contest that Probate
Court’s approval of the proposed settlement. (A 9).
On February 13, 2020, Dr. Rao filed her Response to

App.42a
the Motion to Dismiss. (A 21), and Dr. Rao’s Motion
for Extension of Time to file the Response Instanter
was granted on February 18, 2020. (A 29). On February
20, 2020, the First District granted the Motion to
Dismiss in a one-sentence dismissal order. (A 1).
On March 12, 2020, Dr. Rao filed a Petition for
Rehearing, requesting both that the decision be vacated
and that the Appellate court issue a decision in
compliance with Supreme Court Rule 23. (A 30). The
First District denied the Petition for Rehearing on
April 6, 2020. (A 2).
Argument for Appeal as a
Matter of Right Under Supreme Court Rule 317
Rule 317 in relevant part states: “Appeals from
the Appellate Court shall lie to the Supreme Court
as a matter of right in cases * * * in which a question
under the Constitution of the United States or of this
state arises for the first time in and as a result of the
action of the Appellate Court.” In this matter, the
constitutional question of Dr. Rao’s procedural due
process rights under the fourteenth amendment arose
for the first time on appeal, as a result of the Appellate Court’s reversal of the trial court’s finding that
Dr. Rao has standing in this matter as heir to be
heard and protect her property interests. As shown
above, Dr. Rao has established property interests as
an Estate heir and wrongful death claimant under
Illinois law as held in Cappetta, Wallen, Thomson,
Venturelli, and Powell. Under the holdings in Cardona,
Lyon, Mathews, and Zinermon, the Constitution
requires some kind of a hearing before the State
deprives a person of property, with the opportunity
to be heard in a meaningful manner and present any

App.43a
objections. The appellate court’s reversal on the standing issue, with its denial of Dr. Rao’s opportunity to be
heard on her property interest as heir and wrongful
death claimant, has newly implicated this due process
constitutional concern which must now be addressed
by this Court pursuant to Rule 317.
The Rule 317 issue here is very similar to Dept.
of Public Aid Ex Rel. Cox v. Miller, 146 Ill.2d 399
(1992). In Miller, the Department of Public Aid brought
a paternity action on behalf of a minor to secure
future support for this child who came from a nonmarital relationship. Id. at 400-1. The father moved
to dismiss based on a prior settlement agreement in
a paternity action by the child’s mother that directed
a lump-sum payment. Id. The circuit court denied
the father’s motion because the settlement order
failed to make statutorily mandated findings regarding
the best interests and financial security of the child,
and the court then authorized an interlocutory appeal
pursuant to Rule 308. Id. The appellate court reversed
the trial court, holding that the applicable statute
preserved the finality of the settlement, and that
there was a presumption that the prior court thought
the settlement was in the best interest of the child at
the time. Id. at 402-3.
Under these facts in Miller, this Court granted
the Rule 317 appeal as of right for when a constitutional
question is raised. Id. at 401. Rule 317 applied because
the appellate court’s reversal of the trial’s court’s
finding required this Court to consider a constitutional
question: “The issue we decide is whether a settlement order and dismissal entered in a paternity
action bar a subsequent action brought by or on
behalf of the illegitimate minor for support. We hold

App.44a
that it does not.” Id. at 403. As this Court discussed,
this issue implicated constitutional equal protection
guarantees for non-marital children, and the Court
relied upon the U.S. Supreme Court case of Gerhardt
v. Estate of Moore, 486 U.S. 1050 (1988), to make its
decision. Id. at 409-10. Likewise in this matter, the
appellate court’s reversal and new ruling has
implicated constitutional due process concerns as
shown above with Mathews and Zinermon, and thus
Rule 317 applies to this matter as well and allows
Dr. Rao to appeal as a matter of right.
This Court also allowed a Rule 317 petition in In
Re Application of Rosewell on the ground that the
appellate court’s decision reversing the trial court’s
findings then raised for the first time a constitutional
question regarding the separation of powers. 97 Ill.2d
434, 436 (1983). The circuit court issued an order
removing certain tax-delinquent parcels from a judgment and order of sale because other civil actions for
the delinquent taxes were pending. The appellate court
reversed, holding that the Scavenger Act’s provisions
for sale of property that had been tax delinquent for
five years were mandatory. Id.
The Rosewell appellants were then granted appeal
under a Rule 317 Petition that the appellate court’s
decision had raised a new constitutional question, as
appellants asserted that the decision “would sanction
an unconstitutional interference by the legislature
with the judiciary’s authority to decide cases.” Id. at
439. As in Rosewell, Dr. Rao has an appeal as a matter
of right here under Rule 317, where the appellate
court’s reversal of the trial court’s finding on standing
has now sanctioned an unconstitutional interference
with Dr. Rao’s due process rights. See also Pavlakos

App.45a

v. Department of Labor, 111 Ill.2d 257 (1985) (Court

allowed Rule 317 Petition to address equal protection
and due process claims).
In summary, a constitutional question has newly
arisen here from the Appellate Court’s reversal of the
trial court’s finding on standing, which Dr. Rao
asserts has denied her procedural due process under
Cardona, Lyon, Mathews, and Zinermon as to her
property interests. These property interests as an
heir and wrongful death claimant are established
under Illinois law in Cappetta, Wallen, Thomson,
Venturelli, and Powell, and thus are entitled to due
process protection. Pursuant to the express language
of Rule 317 and this Court’s Rule 317 precedents of
Miller, Rosewell, and Pavlakos, this Petition for
Appeal as a Matter of Right should be granted.
Argument, in the Alternative,
for Leave to Appeal Under Supreme Court Rule 315
In the alternative, this Court should grant leave
to appeal under Rule 315 as a matter of sound
judicial discretion. As shown below, the decision here
conflicts with numerous precedents of other appellate
districts as well as this Court, and thus the Court
should accept this appeal to ensure that this conflict
does not continue and that there is a uniform body of
law in this extremely important area of probate
doctrine and procedure.

App.46a
I. The Decision Here Directly Conflicts with the
Second District’s Standing Decision in In re
Estate of Cappetta, As Well As Numerous
Other Decisions in the Second, Third and
Fourth Districts
A direct conflict exists between this decision and
the Second District’s decision of In Re Estate of
Cappetta, which held that Estate claimants had
standing to argue that the trial court erred in approving
a $1.7 million settlement as requested by the Estate
Administrator. 315 Ill.App.3d at 424-5. The Second
District reasoned that beneficiaries Salvation Army
and Shriners Hospital had standing to file a separate
appeal, even just as beneficiaries of a separate estate
that was also a claimant in the Cappetta Estate. Id.
Cappetta held that even as beneficiaries one-step
removed, the Salvation Army and Shriners Hospital
still had standing from their direct, immediate, and
substantial interest in the subject matter, which
would be prejudiced by the judgment or benefited by
its reversal. Id. Cappetta is exactly on point regarding
the standing issue herein, and Dr. Rao’s claim to
standing is even stronger in this case as a direct
Estate heir. Thus the First District’s decision is
irreconcilable with Cappetta’s holding.
Moreover, the Second District had previously
allowed an Estate beneficiary to appeal the trial court’s
approval of a wrongful death settlement proposed by
the Estate Administrator in In re Estate of Lilly,
which is precisely the standing that Dr. Rao is
seeking here. 41 Ill.App.3d at 352-54. The importance
of allowing such standing can be seen in Lilly, where
otherwise the Estate beneficiary there would have
had no recourse to vacate a settlement in a wrongful

App.47a
death action in which the decedent’s estate was
administered by the same law firm that represented
the defendant insurer — an obvious conflict of interest that unsurprisingly produced a very low settlement.
But despite such manifest injustice that occurred in
Lilly, the First District’s decision here now disagrees
with the Second District that the Lilly beneficiaries
are entitled to any relief. Dr. Rao is seeking the same
type of relief granted in Lilly, that the Rao Estate’s
malpractice attorney had a conflict of interest from
his contingency agreement to seek a “quick score”
settlement that did not adhere to the wishes of
decedent as required under the law. As shown by
Cappetta and Lilly, some checks and balances on the
Estate Administrator are necessary, or otherwise a
manifest injustice to the heirs could easily take
place.

Cappetta also cited the Second District’s decision
of Wallen, in which the Second District reversed to
allow a creditor to dispute improper Estate Administrator actions in the trial court. 262 Ill.App.3d at 72.
Wallen held that the administrator is the representative of the decedent and all those interested in
the estate such as heirs, and is a fiduciary to all those
interested in the estate. Id. See also In Re Estate of
Pine, 141 Ill. App. 3d 750, 771 (2nd Dist. 1986) (beneficiaries had action against executor for mismanagement of Estate funds). This Court should resolve this
immense conflict between the First and Second
Districts regarding whether Estate beneficiaries have
any recourse to correct improper actions by the
Estate Administrator.
The decision here also conflicts with Third and
Fourth District precedents. In Lay, the Third District

App.48a
reversed the dismissal for lack of standing as to a
party who met the definition of an interested person
under the Probate Act in its section 1-2.11. (755
ILCS 5/1-2.11). 2018 Ill Ap (3d) 170378 ¶¶ 14-18.
Because Dr. Rao as heir also has standing in this
matter under Lay and section 1-2.11 “has something
financial to gain if she prevails” (id.), the First District’s
decision is in conflict. The decision here also conflicts
with Knobloch, in which two children entitled to differing compensation from a parent’s death must both
have standing to assert their competing interests.
118 Ill.App.3d at 207-8. The same situation occurs in
this matter with differing compensation due to the
deceased’s two daughters under the wrongful death
claim.
In the Fourth District case of In Re Estate of
Thomson, the court reversed and held that the bene-

ficiaries must be heard in the trial court on their
claims that the Estate Administrator breached his
fiduciary duties to the beneficiaries in his estate
administration. 139 Ill. App.3d at 940 (4th Dist. 1986).
The Third District decided likewise in Estate of
Venturelli v. Granville Nat. Bank, where the creditor
was able to assert that the executor was negligent
in estate management. 54 Ill.App.3d at 1002. These
decisions both conflict with the First District’s holding
here that beneficiaries have no standing to assert
that an Estate Administrator is improperly carrying
out its duties. In addition, numerous Fourth District
cases have allowed an Estate beneficiary to object to
Estate attorney and administrator fees, and conflict
with the decision here that beneficiaries have no
standing to protest any court decision regarding the
administrator. See Weeks, 490 Ill.App3d 1101; Thorp,

App.49a
282 Ill.App.3d 612; Parlier, 40 111. App.3d 840. Lastly,
the decision here also conflicts with Trompeter, which
holds that Dr. Rao has a right to appeal as a party of
record who participated in the proceedings below and
is bound by the decree. 62 Ill.App.3d at 176.
As shown above, the decision here is contrary to
an enormous amount of precedents in the Second,
Third and Fourth Districts, and is expressly directly
in conflict with the stated holding in Cappetta. This
court should resolve this conflict and ensure there is
a uniform body of Illinois law regarding the rights of
Estate beneficiaries to be heard and have their
property protected from improper actions by Estate
Administrators.
II. The Decision Here Conflicts With This Court’s
Holdings in Powell and Wellman
In Powell, this Court held that the beneficiary of
a wrongful death action has standing to contest the
improper attorney actions of the wrongful death
plaintiff s attorney. 2014 IL 115997 ¶¶ 16-20. Because
this is precisely what beneficiary Dr. Rao is also
attempting in this matter, Dr. Rao must have standing
in court pursuant to Powell, and thus the First District’s
contrary decision here is in conflict. In Wellman, this
Court held that standing requires that a party have a
real interest in the action brought and in its outcome.
174 Ill.2d at 344. As further analyzed in Cappetta
and other precedents above, there is no question that
beneficiary Dr. Rao has an enormous monetary and
personal real interest in the settlement here, and
thus the First District’s decision here is also in conflict with Wellman.

App.50a
The First District here apparently relied upon
Midland’s Motion to Dismiss citation to the wrongful
death action appeal in Will v. Northwestern University,
378 Ill.App.3d 280 (1st Dist. 2007), a case which did
not involve the Probate Court or Estate administration.
In Will, where some of the wrongful death beneficiaries
were minors, the trial court held that it had a duty to
prevent the rejection of settlement offers which, in
the minors’ best interests, should be accepted. Id. at
285. Will held that beneficiaries lacked standing on
appeal of a law division case where they had no
participation or standing in the law division trial
court in their individual capacities in the case that
was on appeal, and thus they could not be parties to
that same appeal. Id. at 290. Will itself is arguably in
conflict with the standing holding in Knobloch and
other cases above.
But now the First District with this decision has
greatly expanded the Will holding to find that Estate
beneficiaries also have no standing even in probate
court to dispute any of the Estate Administrator’s
actions there. This new holding is in conflict with
this Court’s precedents in Powell and Wellman as well
as all the other precedents above from the Second,
Third and Fourth Districts such as Cappetta, Knobloch
and Lay. The First District’s novel finding that an
Estate beneficiary has no recourse to protect herself
from improper Estate Administration is anathema to
our ideals of fairness and due process under Illinois
law. The First District’s new doctrine is a serious
departure from the uniform body of Illinois law that
Estate beneficiaries do have the right to be heard in
probate court with their rights and property protected
there, and this Court should take this appeal to pre-

App.51a
vent the continuation of such a stark conflict in this
extremely important area of the law.
III.The Decision Here Conflicts With Illinois and
U.S. Supreme Court Precedents Holding That
Dr. Rao Has a Constitutional Right to Standing
and Procedural Due Process on Her Property
Rights Here
The decision here that Dr. Rao has no standing
to obtain procedural due process and protect her
interest in her Estate and wrongful death claims is
utterly baseless. As to her status as a wrongful death
beneficiary, this Court in Powell held that Dr. Rao is
the true party in interest in the wrongful death
action, and that the amount recovered is for her
exclusive benefit, and that the prosecuting attorney
owes her a fiduciary duty. (12 N.E.3d at 20-21). As
stated above in Cardona, Lyon, Mathews, and Zinermon, the Constitution requires some kind of a hearing
before the State deprives a person of property, with
the opportunity to be heard in a meaningful manner
and present any objections. Accordingly, Dr. Rao must
have standing here to obtain her procedural due
process rights and be heard to present any objections
in order to protect her property interest in her wrongful
death claim before such claim is compromised.
The contrary idea that Dr. Rao is helpless to
have any protection for her wrongful death claim is
antithetical to her constitutional procedural due process
rights as well as common sense. The resulting scenario
that Dr. Rao is entirely at the mercy of an attorney
or administrator who might have completely different
interests is utterly inimical to the fourteenth amendment and its due process guarantee. One only need

App.52a
look at the Lilly case, where the wrongful death
beneficiaries were completely taken advantage of
until reversal after an appeal by the beneficiaries, to
see the necessity of the constitutional procedural due
process guarantee to ensure that Dr. Rao’s property
interest in her wrongful death claim is properly
protected under her Fourteenth Amendment rights.
Likewise, the idea that Dr. Rao has no protectable
property interest in the Estate as an heir and beneficiary is also absurd. Cappetta, Wallen, Thomson,
Lay, and Venturelli all hold that Estate beneficiaries
and creditors such as Dr. Rao have a property interest in the Estate, and the Probate Act itself states
likewise in its section 1-2.11 definition of an interested person. Moreover, these cases also show why
the Estate beneficiary needs due process rights to
protect her property from administrators who are
negligent, corrupt, compromised, or otherwise do not
properly perform their duties regarding the Estate
property. Accordingly, under Cardona, Lyon, Mathews,
and Zinermon, procedural due process requires that
Dr. Rao as heir must have standing and the right to
be heard and present objections to protect her interest
in the Estate property.
IV. Rule 23 Precludes Dismissal of an Appeal in a
One-Sentence Order Under Any Circumstances, But Particularly When a Trial
Court’s Express Standing Finding Is Being
Overruled in the Dismissal Order
This Court’s exercise of supervisory authority is
appropriate here where the First District ignored the
decision requirements of Supreme Court Rule 23.
The Appellate Court’s one-sentence dismissal fails to

App.53a
conform to the requirements of Rules 23 (c)(i), (ii)
and (iii) for summary orders. Moreover, the Appellate
Court’s finding here that the trial court erred in
granting Dr. Rao her standing is not even among the
eight circumstances listed in Rule 23(c) where a
limited summary order may be utilized. Instead, at a
minimum, a written order is required under Rule 23
(b) to support the First District’s decision overruling
the trial court’s finding and holding that Dr. Rao
lacks any standing here.
The Illinois Constitution at Article VI, Section 6
states: “Appeals from final judgments of a Circuit
Court are a matter of right.” As one court commented:
“Everyone is entitled to know why a court does what
it does — the litigants, the attorneys, the public at
large, reviewing courts, and legal history in general.”
Hoult v. Kuhne-Simmons Co., 64 Ill.App.3d 476, 478
(4th Dist. 1978). Dr. Rao, the trial court, this Court,
and all Illinois litigants deserve more respect than
was accorded by the First District in this matter with
its one-sentence Order in violation of Rule 23 that
overturned the trial court’s finding on standing.
WHEREFORE, Appellant Dr. Rao requests that
this Petition to Appeal as a Matter of Right under
Rule 317 be granted, or alternatively, that her Petition
for Leave to Appeal under Rule 315 be granted.

App.54a
Respectfully submitted,
Padma Rao
By: /s/ Michael Steigmann
One of her attorneys
Michael Steigmann
Law Office of Michael Steigmann
190 S. LaSalle #2100
Chicago, Illinois 60091
ARDC 6226169
michael@steigmann.com
(312) 833-5945

